           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   ADMINISTRATIVE COSTS CLAIMED
    BY THE DISTRICT OF COLUMBIA
     DISABILITY DETERMINATION
              DIVISION

 August 2004        A-15-04-14052




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY

MEMORANDUM

Date:   August 13, 2004                                                          Refer To:

To:     Laurie Watkins
        Regional Commissioner
         Philadelphia

From:   Assistant Inspector General
            for Audit

Subject: Administrative Costs Claimed by the District of Columbia Disability Determination
        Division (A-15-04-14052)


        OBJECTIVES

        Our objectives were to:

        •   determine whether the aggregate of the Social Security Administration (SSA) funds
            drawn down agreed with total expenditures for Fiscal Years (FY) 2001 and 2002;

        •   determine whether costs, claimed by the District of Columbia Disability
            Determination Division (DC-DDD) on its State Agency Report of Obligations for SSA
            Disability Programs (Form SSA-4513) for the period October 1, 2000 through
            September 30, 2002, were allowable and properly allocated; and

        •   evaluate internal controls over the accounting and reporting of the administrative
            costs claimed, as well as the draw down of SSA funds.

        This report includes the results of our initial tests of the DC-DDD’s accounting
        environment. Our tests of the current accounting environment require that we expand
        the amount of audit testing to fully develop an understanding of the accounting practices
        and related financial impact. Such expansion will undoubtedly delay the issuance of our
        report. To provide the DC Department of Human Services (DC-DHS) an opportunity to
        begin immediate corrective action, we are communicating issues found to date in this
        report. We will issue a second report upon completion of our audit. We have briefed
        key officials and advised them of the conditions detected to date.

        DC-DHS has agreed that it could improve its accounting for DC-DDD costs and has
        informed us that it is taking corrective actions. To fully understand the complete results
Page 2 – Laurie Watkins
of our audit, both this report and our second report will need to be read. We expect to
issue our second report, Administrative Costs Claimed by the District of Columbia
Disability Determination Division for the Period Ending September 30, 2003
(A-15-05-30018) in FY 2005.

BACKGROUND

The Disability Insurance (DI) program was established in 1956 under Title II of the
Social Security Act (Act). The program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides a
nationally uniform program of income to financially needy individuals who are aged,
blind, and/or disabled.

SSA is primarily responsible for implementing policies governing the development of
disability claims under the DI and SSI programs. Disability determinations under both
DI and SSI are performed by disability determination services (DDS) in each State, or
other responsible jurisdiction, according to Federal laws and regulations.1 In carrying
out its obligation, each DDS is responsible for determining claimants’ disabilities and
ensuring that adequate evidence is available to support its determinations. To assist in
making proper disability determinations, each DDS is authorized to purchase
consultative medical examinations, x-rays and laboratory tests to supplement evidence
obtained from the claimants’ physicians or other treating sources. SSA pays the DDS
for 100 percent of allowable costs.

Each year, SSA approves a DDS budget. At the end of each fiscal quarter, each
DDS submits to SSA a Form SSA-4513 to account for program disbursements and
unliquidated obligations.

The DC-DDD is a component within the DC-DHS Rehabilitation Services Administration
(DC-RSA). DC-DDD’s sole function is processing SSA disability determinations.
DC-DDD’s financial reporting functions are primarily the responsibility of the DC-DHS.

RESULTS OF REVIEW
DC-DDD claimed total obligated costs of $4,633,761 for FY 2001 and $5,733,820 for FY
2002 as of September 30, 2002 and September 30, 2003, respectively; however, we
believe the Forms SSA-4513 submitted by DC-DHS for FYs 2001 and 2002 contain
serious misstatements and may lead to incorrect or unintentional conclusions. The
source of the misstatements included problems with accounting processes, movement
of costs, allocation of costs, classification of costs, and supporting documentation.


1
  42 U.S.C. §§ 421 and 1382c(a)(3)(H)(i) (2004); 20 CFR §§ 404.1601 et seq. and 416.1001 et seq.
(2002).
Page 3 – Laurie Watkins
DC-DHS did not comply with: 1) SSA’s Program Operations Manual System (POMS),
2) Federal laws and regulations, and 3) DC government policies and procedures. Also,
DC-DHS did not have adequate internal controls in place to monitor its accounting
operations on a continuous basis to ensure compliance with these requirements.
Internal controls should include management and supervisory oversight, comparisons,
reconciliations, etc.2

ACCOUNTING PROCESSES

We identified discrepancies with the recording and reporting of obligations3 on the
Forms SSA-4513 because disbursements were being reported in the wrong FY. POMS
states: “Obligations must be based on a bona fide need for goods or services that exist
within the Federal fiscal year and must be made no later than six months after the close
of that fiscal year.” 4

We compared medical costs on the Forms SSA-4513 to DC-DDD’s AS400 data.5 The
AS400 should be the only source of medical evidence (ME) costs in the flow of
transactions for accounting for medical costs. Our comparisons showed that the costs
for ME on the Forms SSA-4513 were overstated by 20 percent and 36 percent for
FYs 2001 and 2002, respectively.

                                       Medical Costs                 Overstatements
                         FY        SSA-4513     DC-DDD                Dollar  Percent
                        2001      $ 1,396,016 $ 1,167,104           $ 228,912    20%
                        2002      $ 1,689,897 $ 1,239,595           $ 450,302    36%

The DC-DDD used its own computer, known as AS400, to control the purchase of ME.
However, the AS400 did not interface with the DC-DHS’ Relational Statewide
Accounting and Reporting System (RSTARS) containing the accounting records for
DC-DDD. To transfer the transactions for purchases of medical records from the
AS400, DC-DDD manually keyed in the transactions as batches into a computer holding
file. As part of this process, DC-RSA assigned a FY designation to the ME batches. As
each batch was entered into the DC-DHS accounting system, all the ME transactions
were recorded with same FY designation for that batch.

Batches of ME purchase transactions entered into the accounting system did not
accurately reflect the correct FY. The FY assigned to the batches was based on the
processing date or funds availability when the batch was processed—not when the ME
was purchased. We confirmed our determination through a discussion with a DC-RSA
administrative officer responsible for assigning the FY to the batches. Also, we
judgmentally selected and reviewed 3 records in each of 22 batches of medical costs.
2
  American Institute of Certified Public Accountants Professional Standards, Vol. 1 AU § 319.53,
(June 1, 2003).
3
  An obligation is a financial or related transaction that creates a legal obligation to pay.
4
  SSA, POMS DI 39506.200 B.1.
5
  Disability claims are processed on an IBM Corporation Model AS/400 computer using I-Levy software.
Page 4 – Laurie Watkins
We found that in 15 of the 22 batches, all 3 records had purchases of ME that were
obligated for the wrong FY.6

DC-DHS accounting managers were aware that ME costs were being recorded in the
wrong FY. DC-DHS accounting managers made “correcting” journal entries, but the
entries were based on the availability of funds in the other FYs not on when the costs
should have been obligated. (See our discussion under the heading, “MOVEMENT OF
COSTS.”) DC-DHS should have identified specific transactions based on the obligation
(authorization) date to make its correcting entries. Also, the lack of reconciliation of
costs between the AS400 computer and RSTARS accounting system to the proper
reporting period contributed to overstated ME costs claimed for reimbursement from
SSA.

SSA needs to work with DC-DHS to ensure that appropriate systems modifications are
made and DC-DHS staff is trained in accounting for DC-DDD costs as required by
POMS. DC-DHS informed us that it plans to hire an accountant to work at the DC-DDD
to ensure that the accounting system and the DC-DDD’s AS400 system reconcile.

MOVEMENT OF COSTS

Our examination of administrative costs claimed for the period under audit identified
expenditures charged to incorrect years’ funds. DC-DHS did not recognize obligations
in the period that the obligations incurred. As stated earlier, obligations must be based
on goods and services having a bona fide need within the Federal FY.7

Improperly shifting costs between FYs impacts the total amount of reimbursements
received from SSA. Costs charged to a wrong FY result in inaccurate reporting and
may result in other SSA needs not being met.

DC-DHS prepared journal vouchers (JV) to move DC-DDD costs between FYs. Costs
for a given FY were applied to another FY without determining whether costs were
proper obligations of that FY. As a result, SSA may have overfunded the DC-DDD’s
operations. The basis for making the JVs may have been to exhaust budget money left
over from other years. During our review of JVs, we found evidence that DC-DHS
considered other years fund’s availability when making the adjustments. DC-DHS could
not provide support to justify the JVs or the movement of costs from one FY to another.




6
  There were 254 batches in FYs 2001, 2002 and 2003. Each batch contains an average of
136 purchases for ME records.
7
  SSA, POMS DI 39506.200 B.1.
Page 5 – Laurie Watkins
Medical Consultant Costs

An analysis of claimed medical consultant costs suggests a 68 percent increase from
FY 2001 ($458,088) to FY 2002 ($771,040). We performed a 100 percent review of
medical consultant8 time sheets, vouchers and transactions posted to the accounting
records. Our review showed that the accounting records for medical consultant costs
were overstated by 31 percent and 134 percent for FYs 2001 and 2002, respectively.

                                    Medical Consultants           Overstatements
                   FY      Accounting Records Consultant Invoices Dollar   Percent
                  2001     $          458,088 $         349,215 $ 108,873      31%
                  2002     $          771,040 $         330,101 $ 440,939    134%

In an attempt to develop the underlying cause for the differences, we reviewed all
FY 2001 and 2002 JVs for medical consultants made to offset other FY funds for
medical consultants. Specifically, we reviewed the following JVs:

               FY 2001 & 2002 JVs for Medical Consultant Costs Affecting Other FY Funds
             Documents
              Reviewed                Amount of
               by Audit   Date of JV JV Audited                  Effect of JV
              JA2CJ012     03/29/02 $ 34,796       transfer costs from FY 2002 to FY 2001
              JK2BA010     08/30/02 $ 99,004       transfer costs from FY 2001 to FY 2002
              JK2BA011     09/11/02 $      2,125   transfer costs from FY 2001 to FY 2002
             JC1OCT01      09/30/01 $ 14,311       transfer costs from FY 2001 to FY 2000
             JA3CS036      08/29/03 $ 10,000       transfer costs from FY 2003 to FY 2002
             JA3EC004      05/12/03 $ 228,394      transfer costs from FY 2003 to FY 2002
             JA3EC005      05/15/03 $ 12,353       transfer costs from FY 2003 to FY 2002
             JA3EC006      06/03/03 $ 31,991       transfer costs from FY 2003 to FY 2002

Our analysis showed the documentation for medical consultant entries did not support
the JVs or DC-DHS’ stated reason, i.e., to correct the FY. For example, according to a
DHS accounting officer, JV JA2CJ012 for $34,796 was supposed to be a correcting
entry moving medical consultant costs recorded in FY 2002 that should have been
recorded in FY 2001. However, we analyzed all of the medical consultant detailed
accounting transactions for FY 2002 and found no costs related to FY 2001.

Medical Costs

We analyzed the JVs to record and adjust purchased medical costs. Evidence did not
support the accounting adjustments. We judgmentally selected eight JVs for medical
costs and found that DC-DHS made seven accounting adjustments to move costs to
unused funding authorization without determining whether costs were proper obligations
of that FY.



8
    Medical consultant costs are included in Personnel Costs on the Form SSA-4513 report.
Page 6 – Laurie Watkins
                   FY 2001 & 2002 JVs for ME Costs Affecting Other FY Funds
          Documents
          Reviewed by               Amount of
             Audit      Date of JV JV Audited                Effect of JV
           JCJA0827      08/27/01   $ 478,032 transfer costs from FY 2001 to FY 2000
           JK2BA010      08/30/02   $ 259,310 transfer costs from FY 2001 to FY 2002
           JA2CJ012      03/29/02   $ 203,237 transfer costs from FY 2002 to FY 2001
           JJ3BA030      09/24/03   $ 247,750 transfer costs from FY 2003 to FY 2002
           JJ3BA016      06/13/03   $ 171,812 transfer costs from FY 2002 to FY 2003
           JA3EC004      05/12/03   $ 171,610 transfer costs from FY 2003 to FY 2002
            JAEC003      05/01/03   $ 480,345 transfer costs from FY 2003 to FY 2002

For example, JV JAEC003 included fund movement of $480,345 of ME costs from
FY 2003 to FY 2002. When we reviewed the JVs, the stated reason listed was that the
transactions were recorded in the wrong FY. However, the supporting documents
consisted of an Agency Budget Financial Inquiry and an Agency Budget Report. The
Agency Budget Financial Inquiry prepared in May 2003 showed FY 2002 funds
available of $500,840. The Agency Budget Report for the period ended March 2003
showed FY 2003 ME costs of $480,345 for the year-to-date. The entire expenditure
amount for FY 2003 to-date was moved to the prior year, FY 2002. We concluded that
DC-DHS first determined the availability of funding authorization using the Agency
Budget Financial Inquiry and applied the next FY costs based on the amounts shown in
the Agency Budget Report. This JV explains, in part, why we found differences
between SSA Form 4513 reporting and the accounting records for DC-DDD as shown
under the heading, “ACCOUNTING PROCESSES.”

DC-DHS stated that it is working to identify the individual transactions recorded in the
wrong FY so that it can make the appropriate accounting adjustments.

ALLOCATION OF COSTS

A number of costs - occupancy, guard services, telephone and utilities - under All Other
Non-Personnel Costs were allocations. Costs must be necessary and reasonable for
proper administration of Federal awards.9 We believe the basis for the allocations was
inappropriate. For example, DC-DHS grouped occupancy costs by pooling all of its
buildings costs then allocating the costs in the pool to the various units, including
DC-DDD, based on the total occupancy budgets of the units. We were informed by the
Chief Financial Officer of DC-DHS that this allocation process was a District policy.

We believe DC-DHS’ method of pooling costs, rather than using the actual lease cost or
per square foot cost, was not an acceptable accounting practice for a reimbursable
program. Volume of square feet and price per foot can vary by unit. As a result, SSA
can be funding more or less than its appropriate share of occupancy costs. We
obtained the lease from DC Office of Property Management. However, we have not

9
 Office of Management and Budget (OMB) Circular A-87, Attachment A, section (C)(1)(a) (as amended
August 29, 1997).
Page 7 – Laurie Watkins
determined the appropriate charges for occupancy because the lease contained some
variable costs10 for which we have not received the additional documentation.

DC-DHS told us that it does not get copies of the leases for DC-DDD space. As a
result, DC-DHS does not have the actual costs that should be charged to the DC-DDD.

CLASSIFICATION OF COSTS

The accounting records for DC-DDD contained incorrectly classified costs that were
reported on the Form SSA-4513 during the audit period. POMS requires that each cost
category be reported on the proper line on Form SSA-4513.11 Therefore, it is essential
that State agencies accurately report costs. We found two types of transaction charges
that were not properly classified—expense charges and organizational charges.

Expense Charges

Transactions were recorded as the wrong type of expense. The DC-RSA identified
expenses as a purchase of one item when it was really a purchase of something else.
The incorrect type of expenses charged included the following transactions:

•    Computer consultant services costs of $16,150 (voucher #V3000264) for FY 2002
     were charged as medical costs. The DC-RSA supervisor stated the budget for
     consultant services costs in All Other Nonpersonnel Costs was already expended so
     the costs were classified as Medical Costs.

•    $138,948 (61 vouchers) and $182,308 (75 vouchers) in FY 2001 and FY 2002
     expenses, respectively, for courier, temporary staff, and information technology
     consulting services were incorrectly classified as medical consultants.

SSA also brought to our attention the Form SSA-4513 reporting for FY 2004, as of
December 31, 2003. While this Form SSA-4513 was outside our audit period, it clearly
showed that expenses were not properly classified and that inaccurate financial
reporting continued in FY 2004.

The entire FY 2004 All Other Nonpersonnel Costs were reported as Miscellaneous
Costs. As noted above, POMS requires that costs be reported on specific cost line
items.12 Line items, which should include regular monthly costs such as Occupancy,
Communications, etc., were reported by DC-DHS as zeroes for the quarter. We believe
it is highly unlikely that cost line items, such as occupancy, would be zero for a quarter.
POMS requires: “The monthly rental obligation [a component of occupancy costs]



10
   For example, the building owner passes costs such as property taxes and cleaning services to the
lessee.
11
   SSA, POMS DI 39506.210 D.
12
   Id.
Page 8 – Laurie Watkins
should be obligated at the beginning of each month on a basis of average monthly cost
of the lease agreement, even though the rent is not paid until a subsequent period.”13

SSA should work with DC-DHS to ensure that expenses are properly classified.

Organizational Charges

Transactions were charged to the wrong organization. Costs belonging to another
entity were recorded as belonging to the DC-DDD. Costs claimed as DC-DDD
expenses were actually costs belonging to the DC-RSA. Federal regulations provide
that States be reimbursed for expenses incurred for program purposes.14 Controls were
not in place to ensure costs were charged to the appropriate entity. For example:

•    Two DC-RSA FY 2001 transactions (V1006068 and V1004201) totaling $13,683 for
     shoes, clothes, etc. were charged to DC-DDD. These costs did not benefit SSA’s
     programs and belonged to another DC-RSA program.
•    Medical consultant costs of $10,160 (12 vouchers) for FY 2001 incurred by DC-DDD
     were charged to DC-RSA.
•    Medical consultant costs of $10,970 (12 vouchers) for FY 2001 incurred by DC-RSA
     were charged to DC-DDD.

SSA should work with DC-DHS to ensure that controls are in place that will prevent
costs from being charged to the wrong expenses or entity. DC-DHS stated it is planning
to hire an accountant to oversee the accounting for DC-DDD costs. The accountant’s
duties would include ensuring that only DC-DDD’s costs are charged to it and that costs
are properly classified.

SUPPORTING DOCUMENTATION

DC-DHS did not provide all vouchers to substantiate certain nonpersonnel costs
claimed. Therefore, we could not review expenses of $14,068 (3 items) and $45,014
(17 items) for FY 2001 and FY 2002, respectively, posted as medical consultants. We
analyzed the accounting records and determined that the vendors’ costs were not for
medical consultants working for the DC-DDD. The DC-RSA Administrative Officer
stated that she did not know what those charges were.

DC-DHS must adequately document accounting records.15 SSA’s POMS require that
agencies retain financial records and supporting documentation until a Federal audit has
been performed and all findings have been resolved.16 DC-DDD informed us it will
search for and analyze the unsupported costs.


13
   SSA, POMS DI 39506.201.
14
   20 CFR §§ 404.1626(a) and 416.1026(a) (2002).
15
   OMB Circular A-87, Attachment A, section (C)(1)(j) (as amended August 29, 1997).
16
   SSA, POMS DI 39509.005 C.1.b.
Page 9 – Laurie Watkins

RECOMMENDATIONS
We recommend SSA:

1. Work with the DC-DHS to ensure that accounting staff is properly trained to account
   for SSA funds as required.

2. Ensure DC-DHS implements systems modifications and controls over its accounting
   process to validate the accuracy of costs claimed.

3. Increase its oversight of the DC-DHS accounting process to detect and correct
   accounting errors relating to the DC-DDD operations.

4. Instruct DC-DHS to reimburse SSA $13,683 for non-DC-DDD costs (shoes, clothing,
   etc.) charged.

5. Instruct DC-DHS to maintain appropriate documentation so that it is readily available
   for audit examination.

SSA AND DC-DHS COMMENTS
SSA’s Philadelphia Regional Office and DC-DHS agreed with our recommendations.
Specifically, SSA (1) will provide on-site training to DC-DHS on the proper recording and
reporting of obligations; (2) is working on systems modification to facilitate accurate
reporting of MER and CE costs by FY; and (3) will perform periodic on-site visits to the
DHS to monitor accounting practices and continue to review the quarterly SSA-4513s.
Also, DC-DHS will return the disallowed costs of $13,683 to SSA’s Division of Finance
and is reviewing and revising its written procedures for maintaining appropriate
documentation in accordance with Federal guidelines. The full text of both SSA and
DC-DHS’ comments are included at Appendices C and D, respectively.




                                               S
                                               Steven L. Schaeffer
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – SSA Comments

APPENDIX D – DC-DHS Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                  Appendix A

Acronyms
Act             Social Security Act
CFR             Code of Federal Regulations
DC-DDD          District of Columbia Disability Determination Division
DC-DHS          District of Columbia Department of Human Services
DC-RSA          District of Columbia Rehabilitation Services Administration
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
JV              Journal Voucher
ME              Medical Evidence
OMB             Office of Management and Budget
POMS            Program Operations Manual System
RSTARS          Relational Statewide Accounting and Reporting System
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code
                                                                      Appendix B

Scope and Methodology
We identified significant problems with the District of Columbia’s Department of Human
Services’ (DC-DHS) accounting operations for the DC Disability Determination Division
(DC-DDD). Therefore, we are issuing this report before the completion of our audit of
DC-DDD’s administrative costs. We will continue our audit of the DC-DDD’s
administrative costs and issue the second in this series of two reports at a later date.

We obtained evidence to evaluate the appropriateness of recorded financial
transactions under the provisions of Office of Management and Budget Circular A-87,
Cost Principles for State, Local and Indian Tribal Governments and the Social Security
Administration’s (SSA) Program Operations Manual System.

We also:

•   reviewed applicable Federal regulations and other instructions pertaining to
    administrative costs incurred by DC-DDD;

•   interviewed DC-DHS, DC Rehabilitation Services Administration (DC-RSA) and
    DC-DDD staff;

•   documented our understanding of the systems of internal control over the
    accounting and reporting of DC-DDD administrative costs;

•   evaluated and tested internal controls regarding accounting and financial reporting;

•   traced the DC-DDD administrative costs DC-DHS reported on State Agency Report
    of Obligations for SSA Disability Programs Forms SSA-4513 to its accounting
    records; and

•   reviewed the prior audit reports and related working papers.

To meet the objectives of our review, we assessed the reliability of computer processed
data produced by the DC-DHS accounting system. We tested the data reliability,
including tracing individual transactions to the source documents, recalculating totals
and other tests deemed necessary. We determined that the data was not sufficiently
reliable. As a result, we performed alternative audit techniques to arrive at our
conclusions.

We performed work at the DC-DHS, DC-RSA and DC-DDD in Washington, D.C. We
conducted our audit work from October 2003 through March 2004. Our audit work was
completed in accordance with generally accepted government auditing standards.
               Appendix C

SSA Comments
Date: June 23, 2004
From: Regional Commissioner
      SSA Philadelphia Region

A review of the draft report entitled, Administrative Costs Claimed by the District of Columbia Disability
Determination Division (DDD) (A-15-04-14052) for Fiscal Years (FY) 2001 and 2002 disclosed serious
accounting misstatements associated with the movement of costs, allocation of costs, classification of costs,
and supporting documentation. In addition, costs were claimed for work not related to the Social Security
Administration’s (SSA) disability programs. Finally, internal control weaknesses were reported regarding
the maintenance of central records and compliance with record keeping practices. We agree with all of the
reports recommendations. Our response to each follows.

Work with the DC-DHS to ensure that accounting staff is properly trained to account for SSA funds as
required.

          SSA Regional Office will provide on-site training to DHS on SSA instructions for the proper
          Recording and Reporting of Obligations. {My staff will be contacting the DDD shortly to
          coordinate this training.}

Ensure DC-DHS implements systems modifications and controls over its accounting process to validate
the accuracy of costs claimed.

          •   The DDD is working on this modification with their case management software vendor,
              ILevy. This will facilitate the accurate reporting of MER and CE costs by fiscal year.

          •   We have advised DHS to prepare written accounting procedures for reporting DDD’s costs in
              accordance with SSA regulations.

Increase its oversight of the DC-DHS accounting process to detect and correct accounting errors relating
to the DC-DDD operations.

          •   We will perform periodic on-site visits to the DHS to monitor accounting practices.

          •   We will continue to review the quarterly SSA-4513s.

Instruct DC-DHS to reimburse SSA $13,683 for non-DC-DDD costs (shoes, clothing, etc.) charged.

          •   DHS has been advised to return the funds to SSA’s Division of Finance:

          Social Security Administration
          P.O. Box 47
          Baltimore, MD 21235
          Attn: Chris Molander 2-K-5 ELR

          The check should be made payable to the Social Security Administration, mailed via FedEx or
          registered mail. DHS has been advised to provide SSA with the tracking information when this is
          sent.




                                                     C-1
Instruct DC-DHS to maintain appropriate documentation, so that it is readily available for audit
examination.

          We have instructed DHS to maintain appropriate documentation for audit in accordance with
          Federal guidelines. Written procedures adequately documenting this requirement are to be
          prepared.

Attached is a copy of the letter sent to the District of Columbia, Department of Human Services.

Thank you for the opportunity to comment.

If members of your staff are interested in discussing this further, they may contact Howard Hughes, Director
of the Center for Disability Programs at 215-597-2967 (Howard.hughes@ssa.gov) or David Koons, District
of Columbia Disability Program Administrator at 215-597-8161 (David.koons@ssa.gov) .


                            /s/
                            Laurie Watkins
                            Regional Commissioner




                                                    C-2
                  Appendix D

DC-DHS Comments
                         GOVERNMENT OF THE DISTRICT OF COLUMBIA
                             DEPARTMENT OF HUMAN SERVICES

                                               ***
Office of the Director

JUL 2 0 2004
Laurie Watkins, Regional Commissioner
Social Security Administrator
Regional Office III
P.O. Box 8788
Philadelphia, P A. 19101

Dear Ms. Watkins:

In response to your letter of June 17, 2004 and correspondence from Steven Schaeffer
dated May 26, 2004, the District of Columbia Department of Human Services herein
transmits our comments and plan of corrective actions concerning the Social Security
Administration (SSA) Office of Inspector General's (OIG) Audit of Administrative Costs
claimed by the District's Disability Determination Division (DDD).

Please note that the State Agency Reports of Obligations for SSA Disability Programs (Form SSA-
4513) for FY 2003 and FY 2004 were submitted on July 9th and July 2nd,
respectively.

Thank you for the opportunity to provide comments, and for your continued support of
the DC-DDD and its efforts in the District of Columbia. If you have any questions,
please contact Elizabeth Parker, Administrator of the Rehabilitation Services Administration, at
(202) 442-8663.




                                                D-1
                               DISTRICT OF COLUMBIA
                           DEPARTMENT OF HUMAN SERVICES

                 COMMENTS AND PLAN OF CORRECTIVE ACTIONS
              RELATIVE TO SSA OIG AUDIT OF ADMINISTRATIVE COSTS
               FOR THE PERIOD OCTOBER 1, 2000 - SEPTEMBER 30, 2002

Work with the DC-DHS to ensure that accounting staff is properly trained to account
for SSA funds as required.
DC-DHS staff will coordinate with the SSA Regional Office to enhance our
understanding of SSA requirements concerning the proper recording and reporting of
obligations.
Ensure DC-DHS implements systems modifications and controls over its accounting
process to validate the accuracy of costs claimed.

DC-DHS has reviewed the SSA reporting requirements, and based on these requirements, have
modified its processes to ensure the accuracy of costs claimed. We are now
performing a detailed review of expenditures to ensure that costs are appropriately
classified. The revised Financial Status Reports (SSA Form 4513) for FY 2003 and FY
2004 reflect changes to expense classifications based on these efforts.

We will review our policies and procedures concerning the accounting process, both at
DC-DDD and DC-DHS, in an effort to identify ways to strengthen controls in this area. Within 90
days, written policies and procedures will be developed and submitted to the
SSA Regional Office for review.

We are in receipt of the attachment to your letter which provides guidance on SSA Form 4513
reporting requirements. This document will be incorporated into our written
policies and procedures on federal reporting.

Increase its oversight of the DC-DDS accounting process to detect and correct
accounting errors relating to the DC-DDD operations.

We appreciate the opportunity to receive technical and other support from SSA in
developing an accurate accounting process relative to the DC-DDD operations. DC-DHS
has requested that the DC-DDD provide more detailed information in order to detect and correct
accounting errors related to the DC-DDD prior to any reports being submitted to
SSA.

Instruct DC-DHS to reimburse SSA $13,683 for non-DC-DDD costs (shoes, clothing,
etc.) charged.

Within 30 days, a check made payable to the SSA for $13,683 will be issued in
repayment of the disallowed costs.




                                              D-2
Instruct DC~DHS to maintain appropriate documentation, so that it is readily available
for audit examination.

We will review our policies and procedures concerning the filing, maintenance, and retrieval of
supporting documentation for grant expenditures, in an effort to identify ways to strengthen
controls in this area. Within 90 days, written procedures will be updated
and submitted to the SSA Regional Office for review.




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

     Frederick Nordhoff, Director, Financial Audit Division

     Lance Chilcoat, Audit Manager, (410) 965-9743

Staff Acknowledgments

In addition to those named above:

     Steven Sachs, Auditor-in-Charge

     Sigmund Wisowaty Jr., Senior Auditor

     Ronald Anderson, Auditor

     Melissa McDaniel, Auditor

     Ellen Silvela, Auditor

     Eugene Crist, Auditor

     Brennan Kraje, Statistician

     Annette DeRito, Writer/Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-15-04-14052.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
